   December 5, 2003




Audit Oversight

Review of Allegations Concerning
NAVAIR Contracting Officer Actions
(D-2004-6-004)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

BCM                   Business Clearance Memorandum
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DPA                   Defective Pricing Action
FAR                   Federal Acquisition Regulations
FMS                   Foreign Military Sales
LGTR                  Laser Guided Training Rounds
LMSI                  Lockheed Martin Systems Integration
NAVAIR                Naval Air Systems Command
NCIS                  Naval Criminal Investigative Service
PNM                   Post-Negotiation Memorandum
SRD                   Sierra Research Division of LTV Electronics and Missile Group
TINA                  Truth in Negotiations Act
TRE                   Teledyne Ryan Electronics, Inc.
Table of Contents

Executive Summary                                                     i

Background                                                            1

Objectives                                                            1

Findings
     Actions by Naval Air Systems Command Contracting Officers        2

Appendixes
     A. Evaluation Process                                           10
         Scope and Methodology                                       10
         Prior Coverage                                              11
     B. Chronology of Significant Events for IBM and Subcontractor
          Certifications                                             12
     C. Summary of Management Comments on the Finding and Our
          Response                                                   13
     D. Report Distribution                                          17

Management Comments
     Naval Air Systems Command                                       19
          Office of the Inspector General of the Department of Defense
Report No. D-2004-6-004                                            December 5, 2003
   (Project No. D2003-OA-0021)

          Review of Allegations Concerning NAVAIR Contracting
                              Officer Actions

                                 Executive Summary

Who Should Read This Report and Why? This report should be read by contracting
officers who determine contractor compliance with Section 2306a, title 10, United States
Code, referred to as the Truth in Negotiations Act (TINA), and negotiate and administer
contracts that encompass special tooling and test equipment. The report explains how to
properly implement the statutory provisions when requesting and obtaining cost or
pricing data.

Background. The review was performed in response to three allegations to the Defense
Hotline.

   •   Contracting officers at the Naval Air Systems Command (NAVAIR), Patuxent
       River, Maryland, did not recover funds due the Government as a result of
       contractor violations of TINA;

   •   A contracting officer did not follow up on special tooling and test equipment that
       the Government had paid for contrary to Federal Acquisition Regulations and
       Navy contract negotiation and administrative procedures; and

   •   NAVAIR had not prepared a procurement negotiation memorandum on a contract
       contrary to Federal Acquisition Regulations 15.406.3.

Results. The first allegation that NAVAIR did not recover $713,539 on a defectively
priced contract was substantiated. NAVAIR prevented recovery by stating that they did
not rely on cost or pricing data during the negotiations of the contract. NAVAIR also
delayed more than 6 years the resolution and disposition of the Defense Contract Audit
Agency defective pricing reports.

The second allegation was partially substantiated. NAVAIR did not followup or alert the
administrative contracting officer about the special tooling when the contractor claimed
title to Government property valued at more than $145,000.

The third allegation was substantiated.
We recommend that the Assistant Commander for Contracts, NAVAIR:

    •   provide training to procurement officers and contract specialists on the
        requirements for cost and pricing data and the preparation of business clearance
        memorandums;

    •   establish performance measures for timely resolution and disposition of reports;
        and

    •   notify the administrative contracting officer about the special tooling to either
        identify it as Government property or determine what happened to it.

Management Comments and Our Response. We have summarized NAVAIR
comments on the findings and recommendations and our responses to those comments in
Appendix C. As a result of Management Comments, we deleted recommendation 1.c.
and added recommendation 3 to clarify our intent. The complete text of the comments is
in the Management Comments section of the report. Although NAVAIR did not concur
with the findings, they concurred with recommendations. However, NAVAIR comment
regarding the need for additional training indicated a failure to understand the problem
identified in the report. Also, NAVAIR did not provide an action plan to implement
recommendation 2 on establishing performance metrics. We request that NAVAIR
respond to the final report with an action plan to implement recommendations 1 and 2
and comment on the added recommendation 3.

We request NAVAIR provide comments to the final report by January 5, 2004.




                                             ii
Background
    We conducted this evaluation in response to a Defense Hotline complaint that
    included three allegations involving contracting officers at the Naval Air Systems
    Command (NAVAIR), Patuxent River, Maryland.

    The first allegation was that contracting officers did not recover funds due the
    Government as a result of contractor violations of Section 2306a, title 10, United
    States Code, Cost or Pricing Data: Truth in Negotiations, also referred to as the
    Truth in Negotiations Act (TINA). NAVAIR and IBM Federal Systems (IBM)
    negotiated a $168 million firm-fixed-price contract number N00019-89-D-0027
    on the LAMPS MK III Ship/Air Weapon System on October 26, 1989. Eight
    months earlier, IBM had negotiated a subcontract with the Sierra Research
    Division (SRD) of LTV Electronics and Missile Group. One month after
    negotiating with IBM, SRD signed a purchase order under the same contract with
    Teledyne Ryan Electronics, Inc. (TRE). (See Chronology of Events at
    Appendix B).

    A second allegation was that a contracting officer did not follow up on special
    tooling and test equipment that the Government had paid for. The Federal
    Acquisition Regulations (FAR) defines “special test equipment” as either single
    or multipurpose integrated test units engineered, designed, fabricated, or modified
    to accomplish special purpose testing in performing a contract. Special test
    equipment does not include material, special tooling, facilities, and plant
    equipment items used for general-purpose plant testing purposes. “Special
    tooling” is defined as equipment and manufacturing aids that are of such
    specialized nature that their use is limited to the development or production of
    particular supplies or parts or to the performance of particular services. The
    allegation concerned the Laser Guided Training Rounds (LGTR) program and
    included the following seven contracts: N00019-90-C-0006, N00019-91-C-0125,
    N00019-93-C-0084, N00019-95-C-0024, N00019-96-C-0235, N00019-98-C-
    0131, and N00019-99-C-1648.

    The third allegation was that NAVAIR had not prepared a negotiation
    memorandum after negotiating contract number N00019-98-C-0131.


Objective
    The objective was to determine the validity of the Defense Hotline allegations.
    See Appendix A for details on our scope and methodology.




                                         1
           Actions by NAVAIR Contracting Officers
           NAVAIR contracting officers did not comply with FAR requirements
           when negotiating and administering the contracts addressed in the Hotline
           referral.

              •   The first allegation, that NAVAIR did not recover $713,539 on a
                  defectively priced contract, was substantiated. NAVAIR stated
                  that they did not rely on cost or pricing data during negotiations;
                  therefore, a key element to prove defective pricing did not exist.
                  However, NAVAIR did not comply with statutory and regulatory
                  requirements when negotiating the TINA covered contract and did
                  not properly or promptly settle the defective pricing audit reports.

              •   The second allegation that a contracting officer did not follow up
                  on special tooling and test equipment was partially substantiated.
                  The contractor notified NAVAIR contracting officials in 1999 that
                  it considered special tooling paid for by the Government to be
                  contractor property. NAVAIR did not follow up or take action to
                  claim the Government property. As a result, special tooling valued
                  at $145,000 was never recorded as Government Property and
                  tracked in accordance with FAR requirements.

              •   The third allegation, that the contracting officer had not prepared a
                  negotiation memorandum for a specific contract, was
                  substantiated.


Nonrecovery of Funds
    The first allegation, that NAVAIR did not recover funds due to TINA violations,
    was substantiated. NAVAIR prevented recovery by stating that they did not rely
    on cost or pricing data during the negotiations of the contract. NAVAIR also
    delayed more than 6 years the resolution and disposition of the Defense Contract
    Audit Agency (DCAA) defective pricing audit reports. NAVAIR relied on the
    IBM analysis of subcontractor price proposals, which had not been updated to
    include current, accurate, and complete cost and pricing data from vendors.
    Because NAVAIR stated that subcontractor cost or pricing data was not relied on,
    NAVAIR negated the ability of the Government to recoup under TINA.

    NAVAIR Actions During Contract Negotiations. When negotiating with IBM
    in October 1989, NAVAIR relied on an analysis performed by IBM, which
    contained noncurrent and incomplete cost or pricing data pertaining to SRD, a
    first-tier subcontractor, and its vendor, TRE. IBM provided a record of the
    negotiations conducted with SRD that ended February 24, 1989, which was
    8 months before the effective date of the IBM Certificate of Current Cost or
    Pricing Data, October 26, 1989. The record included a schedule of costs for
                                        2
          purchased parts from vendors, including TRE, and a statement that IBM had
          pointed out inconsistencies in the SRD proposal, including the use of actual costs
          from different time periods. IBM also stated that it had repeatedly requested
          updated cost data from SRD pertaining to its vendor, TRE. SRD had not been
          able to adequately support its vendor information. Nevertheless, SRD and TRE
          had executed certificates of current cost and pricing data before IBM certified its
          data to NAVAIR. Appendix B shows a chronology of significant events related
          to the IBM and its vendor negotiations and cost and pricing data certifications.

          Although the contracting officer was aware of IBM and DCAA concerns about
          the inadequacies in the SRD price proposal, he relied on the IBM bottom-line
          negotiations of a subcontract with SRD. IBM negotiators had informed NAVAIR
          of the difficulties they had experienced in attempting to obtain current, accurate,
          and complete data from a first-tier subcontractor, SRD, despite repeated requests.
          Further, two DCAA audit reports, a bid proposal report and an estimating systems
          report, had questioned SRD vendor information. When informed of the SRD
          inadequate vendor information through the DCAA price proposal audit reports of
          the first tier subcontractor, the contracting officer could have requested an audit
          of the TRE second-tier subcontract proposal. Although a small percentage of the
          total IBM contracts value, the SRD subcontract and its vendor TRE were still
          over the TINA threshold. At a minimum, the contracting officer could have
          requested updated, indirect rate information to verify the accuracy of TRE
          proposed indirect rates. Instead, the Business Clearance Memorandum (BCM)1
          signed May 17, 1990, merely confirmed that SRD estimates of engineering hours
          were unreliable. A May 1991 DCAA defective pricing audit report on TRE
          confirmed that the subcontractor’s proposed indirect rates had been obsolete and
          the labor hours overstated. Yet, SRD had negotiated a favorable price with its
          vendor but had not provided that information to IBM.

          TINA and FAR Provisions. The TINA statute requires contractors and
          subcontractors to submit cost or pricing data and to certify that the data are
          current, accurate, and complete. A prime contractor is liable for any defective
          cost or pricing data submitted by its subcontractors to the Government. FAR
          Subpart 15.801, Definitions, that governed this contract, defined cost or pricing
          data as all facts as of the date of price agreement that prudent buyers and sellers
          would reasonably expect to affect price negotiations significantly. Cost or pricing
          data are factual and are therefore verifiable. Cost or pricing data are more than
          historical data; they are all the facts that can reasonably be expected to contribute
          to sound estimates of future costs and to the validity of determinations of costs
          already incurred.

                  The TINA provisions covered the subcontract and second-tier
          subcontracts that were valued at more than $500,000. TINA requires the
          contracting officer to obtain cost or pricing data unless specific exceptions apply
          and allows the Government, after contract award, to obtain a price reduction
          based on defective cost or pricing data. The specific exemptions in FAR Subpart
          15.804-3 were:

                   •   When the price is based on adequate price competition;

1
    The Business Clearance Memorandum summarizes the contract negotiations.

                                                   3
       •   When prices are set by law or regulation; or

       •   When the acquisition is for a commercial item.

       None of these three conditions were present when IBM negotiated with
NAVAIR. The head of the agency can grant waivers from the TINA
requirements in an exceptional case. However, no waiver was requested. When
the contracting officer elected not to rely on certified cost or pricing data, as
NAVAIR concluded in the July 10, 2001, BCM, he effectively negated the TINA
requirements.

DCAA Audit Findings of Defective Pricing. From May 1991 through
December 2000, DCAA issued five defective pricing audit reports to identify the
initial finding and to update for additional information. On May 8, 1991, DCAA
issued the Report on Post-award Review of Purchase Order MS71862-09,
Teledyne Ryan Electronics, Inc., that identified the source of the defective
pricing. In 2001 and 2002, DCAA issued three supplemental reports to update the
previous reports, which had not yet been resolved or closed. The report on
Lockheed Martin Systems Integration - Owego (formerly IBM), Report
No. 6271-1999G42097001, December 21, 2000, restated the previous finding of
defective subcontractor data and recommended a price adjustment of $713,539.
The adjustment was based on the TRE defective pricing amount of $413,316 that
was increased by indirect expenses and profits applicable to SRD and IBM. The
TRE defective pricing amount represented about 34 percent of the second-tier
subcontract that was negotiated for $1.22 million.

Although DCAA determined that the second-tier subcontractor, TRE, caused the
defective pricing, the prime contractor, IBM, was liable for subcontract price
reductions even if it had no knowledge of the defective data. FAR
Subpart 15.806-2, Prospective Subcontractor Cost or Pricing Data, required a
prime contractor to update a prospective subcontractor’s data to ensure that the
data were current, accurate, and complete as of the date of price agreement.

NAVAIR Actions to Settle the Defective Pricing Issue. NAVAIR was
precluded from settling the defective pricing issue for 3 years, from January 29,
1992, until December 1994, because of a Naval Criminal Investigative Service
(NCIS) investigation involving allegations about another SRD vendor on contract
N00019-89-D-0027. The NCIS agent discussed the administrative settlement of
the defective pricing issues with NAVAIR in December 1994, and the contracting
officer agreed to proceed with settlement negotiations. Although settlement
actions could proceed, contracting officers did not dispose of the defective pricing
reports over the next 6 years and 7 months. Three procurement contracting
officers and four contract specialists looked at the defective pricing issue during
that time. During the prolonged delay, many of the actual participants in the
negotiations had left their positions, and key personnel at the Government and
contractor offices were no longer available. Prompt and decisive action taken by
parties familiar with the circumstances during the negotiations may have led to a
satisfactory solution of the defective pricing issue.

                                     4
        The Office of Management and Budget Circular No. A-50, “Audit
Followup,” and DoD Directive 7640.2, Contract Audit Followup, require
contracting officers to make a determination on audit findings within 6 months of
the report issuance. The Directive states that the report is over age if not disposed
of or closed within 12 months, when one of several actions occurs: the contractor
implements Government recommendations; the contracting officer negotiates a
settlement with the contractor; or the audit report is superseded by a new report.

        On July 10, 2001, more than 6 years after NCIS advised NAVAIR that
they could proceed, the contracting officer signed a Negotiation BCM stating that
subcontractor cost and pricing data were not relied on during the negotiation of
the prime contract and, therefore, defective pricing did not exist. On July 12,
2001, the contracting officer also sent a letter to DCAA requesting that audit
Report No. 6271-1999G42097001 be rescinded because the contracting officer
did not rely on the certified cost and pricing data in negotiating the contract. The
contracting officer can and should request that DCAA reassess its conclusions
based on additional facts provided by the contracting officer. However, to ask
that the report be rescinded, although potentially a matter of semantics to the
contracting officer, is a technically that could be construed by “knowledgeable
third parties” to compromise the auditors independence in accordance with the
Government Auditing Standards. These standards require that the auditors be
independent both in fact and appearance. As a result of the contracting officers
request and based on a review of the documentation, the DCAA legal
representative concluded that the contracting officer did rely on the data;
therefore, DCAA did not revise its report conclusions. NAVAIR contracting
officers should take care not to request DCAA take actions that could be
construed by “knowledgeable third parties” to impact the independence of the
auditors either in fact or appearance.

Conclusion. The following NAVAIR contracting officer actions were contrary to
the Government’s best interests:

       •   Not relying on requested cost or pricing data;

       •   Not requesting audit assistance from DCAA to obtain any updated cost
           or pricing information that IBM might have been unable to gather;

       •   Not acting promptly to resolve and achieve disposition of the defective
           pricing audit reports while parties involved were available to properly
           address the issues; and

       •   Requesting DCAA to rescind their audit report.

It is essential that contracting officers properly implement the TINA and FAR
provisions concerning cost and pricing data when negotiating sole-source
contracts. Ignoring the requirements for cost and pricing data circumvents the
TINA statute and can result in the forfeiture of the legal remedy that price
adjustment provides when defective pricing is detected and properly supported.
Office of the Inspector General Report No. D-2001-129, May 30, 2001, on
“Contracting Officer Determination of Price Reasonableness When Cost or


                                      5
    Pricing Data Were Not Obtained,” identified similar issues throughout DoD
    (Appendix A). In addition, IG Report 99-048, “Dispositioned Defective Pricing
    Reports at the Naval Air Systems Command,” December 8, 1998, reported a
    continued failure to timely resolve and disposition defective pricing audit reports.


Accounting for Special Tooling and Test Equipment
    NAVAIR Followup on Government Property. The second allegation contained
    three parts:

       •   NAVAIR had not followed up on special tooling and test equipment;

       •   The contractor had been paid for two sets of special test equipment but
           had purchased only one set without returning the funds for the
           unpurchased equipment;

       •   The contractor had used the Government property in the performance of
           Foreign Military Sales (FMS) contracts without paying the Government
           rent.

    NAVAIR had not followed up on property that the Government paid for under the
    LGTR contracts. Therefore, the first part of the allegation was substantiated.
    However, we could not substantiate the other two allegations, in part, because
    contracting officers had not followed the required contract negotiation and
    administration procedures, and BCMs did not provide adequate information on
    Government property.

            Contract Clauses Governing Special Tooling and Test Equipment. In
    order to protect the Government’s interest, the FAR instructs the contracting
    officer to insert the contract clause at FAR Subpart 52.245-2, Government
    Property, in fixed-price contracts. The clause covers special test equipment
    acquired under the contract and allows the Government to gain title to the test
    equipment included in the contract. Special tooling is addressed in the contract
    clause at FAR Subpart 52.245-17, Special Tooling, which the contracting officer
    must insert in a fixed-price contract that will include such items. The clause
    provides that the Government has an option to take title to all special tooling
    subject to the clause until the contracting officer relinquishes the option to take
    title.

            Special Tooling. We reviewed seven contracts and determined that
    five contracts, numbers N00019-93-C-0084, N00019-95-C-0024,
    N00019-98-C-0131, N00019-96-C-0235, and N00019-99-C-1648, contained the
    Special Tooling clause. However, we could not determine what had been
    purchased or what the Government had paid for tooling on the contracts because
    there is no requirement to identify special tooling. The contractor proposed about
    $145,000 of special tooling on a sixth contract, number N00019-91-C-0125. This
    contract did not contain the required special tooling clause. However, NAVAIR
                                         6
     stated the contract was subject to a class deviation in effect at the time the
     contract was negotiated. The special deviation provided for coverage of special
     tooling under the Government Property clause. As a result, the title to special
     tooling items purchased by the Government under the LGTR program would have
     passed to the Government. However, in a 1999 letter to the Contracting Officer,
     LSMI claimed the property as theirs. The contracting files did not contain this
     letter and the current NAVAIR and DCMA contracting officials did not know
     about the letter.

             NAVAIR could not provide sufficient information regarding special
     tooling for the remaining contract, number N00019-90C-0006. Therefore, we
     could not determine the amounts paid by the Government, if any, for special
     tooling on that contract or whether the clause should have been included.

             Special Test Equipment. We could not substantiate the allegation that
     the contractor had proposed but not purchased two pieces of special test
     equipment although the Government had paid $163,000 for the equipment. The
     contractor identified one tester and explained that it had been built to perform the
     functional tests of the two special testers proposed. We did not review the actual
     cost of materials that went into the construction of one versus two pieces of test
     equipment.

             Foreign Military Sales. The allegation that the contractor had not paid
     the Government rent for use of equipment in the performance of foreign military
     sales contracts was not substantiated. We could not determine whether the
     contractor had used Government property in the performance of any non-
     Government contracts. In addition, the Defense FAR Supplement was changed in
     1991 and made retroactive to 1989 to allow contractors to use Government
     property rent-free in the performance of foreign military contracts. Therefore, the
     costs would have been allowable unless contractor usage on foreign military
     contracts prior to 1989 could be identified.

     DCMA Property Administration. The contractor is required by FAR to account
     for all Government property in its possession and to tag and identify that property.
     DCMA Property Administrators have responsibility to oversee the contractor’s
     property management system and perform functional reviews of the contractor’s
     system. DCMA found the contractor’s system to be unsatisfactory in 2001;
     however, the contractor corrected the deficiencies and DCMA pronounced the
     system satisfactory in 2002. Therefore, we had no information to support an
     allegation that the contractor had acted improperly.


Documenting the Results of Negotiations
     Preparation of Negotiation Documents. We substantiated the allegation that
     NAVAIR had not documented the negotiation results for contract number
     N00019-98-C-0131. NAVAIR uses BCMs to document the results of
     negotiations. The FAR Subpart 15.406-3, Documenting the Negotiation, requires
     contracting officers to prepare a document with specified information after
     negotiations have been completed and to forward a copy to the cognizant DCAA
     offices.
                                           7
     NAVAIR had prepared six BCMs on the LGTR program but had provided only
     two copies to DCAA. DCAA uses the information in negotiation documents
     when conducting a post award audit. The information also provides essential
     feedback on the effectiveness of the audit and on auditor responsiveness to the
     needs of the contracting officer. Therefore, it is essential that contracting officers
     forward the documents to the cognizant audit offices.

Management Comments on the Finding and Our Response
     Summaries of management comments on the finding and our evaluation response
     are in Appendix C. Based on management comments, we have deleted
     recommendation 1.c., and renumbered recommendation 1.d., and added
     recommendation 3 to require notifying the administrative contracting officer of
     the special tooling.

Recommendations, Management Comments, and Our Response
     We recommend that the Assistant Commander for Contracts, Naval Air Systems
     Command:

     1. Provide training to procurement officers and contracts specialists on:

            a. The proper use of, and reliance on, cost or pricing data submitted by
        sole source contractors and subcontractors to meet the requirements of
        Section 2603a, title 10, United States Code.

           b. The requirement for prompt resolution and disposition of contract
        audit reports in accordance with the Office of Management and Budget
        Circular No. A-50, “Audit Followup,” and DoD Directive 7640.2, “Contract
        Audit Followup.”

           c. Preparation of business clearance memorandums as the Federal
        Acquisition Regulations require and to forward copies to the cognizant
        contract audit offices.

     2. Establish performance measures for timely resolution and disposition of
     contract audit reports.

     3. Notify the administrative contracting officer about the special tooling to ensure
     the property is either tagged or identified as Government property or to obtain an
     explanation of what happened to the special tooling if it no longer exists.

     Management Comments. NAVAIR concurred with the recommendations in the
     draft report. NAVAIR currently provides and will continue to provide training to
     procurement officers and contract specialists on all areas listed in the
     recommendations.

                                           8
OIG DoD Response. NAVAIR comments are only partially responsive to the
recommendations.

        Recommendation 1. The comment that they provide and will continue to
provide training does not reflect the need to provide remedial training and
guidance for the requirement and use of cost and pricing data. The NAVAIR
comment to the finding that there is “…NO requirement for a contractor to use
such data within their proposal, or for the contracting officer to rely on such data
to negotiate the contract price” is indicative of their lack of understanding of the
requirement of and intent of the Truth in Negotiations Act. They also commented
that there was some question of whether the data was defective. However, the
only justification expressed to us during our review or in their comments was that
they did not rely on the data. To support an ethic that would have the contractor
provide the data, require certifications of the data, and then not use the data is
contrary not only to TINA but to good business practices. Contractors expend
considerable resources to comply with TINA and they deserve to either have the
requirement waived, if appropriate, or to have the data relied on by the
Government.

        Recommendation 2. NAVAIR did not address when they would add
performance measures for timely resolution and disposition of contract audit
reports. Although they believed that they were timely, they did not consider all
factors in this determination. They should provide an action plan for including
performance measures in their performance plan.

         Recommendation 3. Based on the NAVAIR comments and additional
information provided, we deleted draft recommendation 1.c. and added
recommendation 3. Based on the additional information provided by NAVAIR,
the letter from LMSI to the NAVAIR contracting officer, the resultant confusion
surrounding the issue, and the time that has elapsed, we recommend that the
NAVAIR contracting officer notify the DCMA to determine the status of the
property.




                                     9
Appendix A. Evaluation Process

Scope and Methodology
    We visited NAVAIR Patuxent River, Maryland, and the Navy Criminal
    Investigative Service to review files pertaining to the three issues in the Defense
    Hotline complaint for which NAVAIR had responsibility. We also had
    discussions with NAVAIR contracting officials, DCMA Property Management
    personnel, DCAA auditors, and the DCAA Liaison Auditor at NAVAIR.

    To determine whether the allegations could be substantiated, we reviewed
    business clearance memoranda and supporting documents in the contract files,
    information contained in NCIS investigative files, and the following audit reports:

           •   Report on Post-award Audit of Cost or Pricing Data Under
               Contract No. N00019-89-D-0027, IBM Federal Systems, Report
               No. 6351-90A42010009, September 4, 1992.

                   - The audit report on IBM included as an appendix Report on Post-
                     award Audit of Cost or Pricing Data IBM Purchase order 651062,
                     LTV Sierra Research Division (SRD) of LTV Electronics and
                     Missile Group, Report No. 2221-90L42030002, September 26,
                     1991.

                   - The defective pricing report on SRD included as an appendix the
                     May 8, 1991, DCAA Report on Post-award Review of Purchase
                     Order MS71862-09, Teledyne Ryan Electronics, Inc. The report
                     identified the source of the defective pricing.

           •   Report on Post-award of Cost or Pricing Data on Contract
               No. N00019-89-D-0027, Lockheed Martin Systems Integration -
               Owego (formerly IBM), Report No. 6271-1999G42097001,
               December 21, 2000.

                   - The report included as appendixes the 1991 report on TRE and a
                     supplemental report on SRD, Report No. 2262-90L42030002-S1,
                     January 20, 1998.

    We performed this evaluation from October 2002 through June 2003.




                                         10
Prior Coverage
    During the last 5 years, the Office of the Inspector General, Department of
    Defense, has issued one report on the determination of price reasonableness
    without cost or pricing data. Inspector General, DoD, Report No. D-2001-129,
    “Contracting Officer Determinations of Price Reasonableness When Cost or
    Pricing Data Were Not Obtained,” May 30, 2001, included a systematic, historical
    review of 145 contract actions. The study concluded that contracting officials
    lacked valid exceptions from the requirements to obtain certified cost or pricing
    data and failed to obtain required data in 46 (32 percent) of the 145 contracting
    actions. Problems contributing to poor price analysis included an atmosphere of
    urgency caused by a lack of planning, staffing shortages, the need for additional
    leadership oversight, and a generally perceived lack of emphasis on obtaining cost
    or pricing data. In addition, IG DoD Report No. 99-048, “Dispositioned
    Defective Pricing Reports at Naval Air Systems Command,” December 8, 1998
    reported a continued failure to timely resolve and disposition defective pricing
    audit reports. Unrestricted Inspector General of the Department of Defense (IG
    DoD) reports can be accessed at http://www.dodig.osd.mil/audit/reports.




                                        11
Appendix B. Chronology of Significant Events for
            IBM and Subcontractor
            Certifications


    Date                Event


    August 15, 1988     TRE (Second-tier Subcontractor) submits original
                        Proposal to SRD (First-tier Subcontractor)

    November 7, 1988    TRE submits revised proposal to SRD

    February 14, 1989   TRE extends validity of its November 7, 1988, proposal to
                        March 31, 1989

    February 24, 1989   Date of Negotiation between SRD (First-tier
                        Subcontractor) and IBM (Prime contractor)

    February 24, 1989   SRD Certificate of Current Cost or Pricing Data

    March 10, 1989      SRD executes Certificate of Current Cost or Pricing Data
                        with effective date as February 24, 1989

    March 20-22, 1989   TRE and SRD fact-finding and negotiations begin

    March 23, 1989      TRE updates proposal, and TRE and SRD negotiations
                        conclude

    March 29, 1989      TRE executes Certificate of Current Cost or Pricing Data
                        with effective date as of March 23, 1989

    December 7, 1989    IBM executes Certificate of Current Cost or Pricing Data to
                        the Government with effective date as of October 26, 1989




                                     12
Appendix C. Summary of Management
            Comments on the Finding and Our
            Response
   Summary of Management Comments 1, 2, and 5 on Nonrecovery of Funds.

   Reliance. NAVAIR nonconcurred with the allegation that the contracting officer
   did not recover $713,539. NAVAIR decided not to seek additional cost or pricing
   data for the second tier subcontractor once it decided that ample price analysis
   data existed. Consequently, NAVAIR does not agree that it violated statutory or
   regulatory requirements when awarding this contract.

   There is no statutory or regulatory requirement to rely on cost or pricing data, and
   there is some question with respect to whether or not the data would be
   considered defective. There is no requirement for a contractor to use cost or
   pricing data within their proposal, or for the contracting officer to rely on such
   data to negotiate the contract price. It is the contracting officer’s responsibility to
   determine a fair and reasonable price. The contracting officer elected to rely on
   the IBM bottom-line negotiated price with their first tier subcontractor, SRD.
   Because the contracting officer did not rely on the allegedly defective SRD/TRE
   subcontract data, there could be no requisite causal connection between reliance
   on defective data and an overstatement in contract price.

           Response. We disagree that there is not a requirement to use cost or
   pricing data. For negotiated sole source contracts that exceed the $500,000
   threshold, TINA and FAR required that the contracting officer obtain and use cost
   or pricing data to obtain a fair and reasonable price for the Government, absent a
   properly documented exemption or waiver. The contracting officers requested
   and obtained certifications from the contractors and subcontractors to show
   compliance with TINA. A contracting officer may choose not to obtain certified
   cost or pricing data on sole source negotiated contracts only if one of the three
   specific exemptions from cost or pricing data exists, or the head of the agency
   grants a waiver. In this case, no exemption or waiver was obtained or
   documented.

   In accordance with 10 U.S.C. Section 2306a (e)(B)(3)(C), it is not a defense to an
   adjustment of the price of a contract that the contract was based on an agreement
   between the contractor and the United States about the total cost of the contract,
   and there was no agreement about the cost of each item. FAR subpart 15.806,
   Subcontract Pricing Consideration, states that subcontract prices must be
   reviewed and analyzed by the Government even if the prime contractor negotiated
   subcontract prices before negotiating the prime contract. In no instances should
   such negotiated subcontract prices be accepted as the sole evidence that these
   prices were fair and reasonable. DCAA had reviewed the SRD subcontract
   proposal and evaluated SRD’s estimating system and identified sufficient
   deficiencies in their system to prompt a responsible contracting officer to pursue
   the necessary second tier subcontractor proposal data through an audit.


                                         13
TINA was enacted to protect the Government when negotiating noncompetitive
fixed price contracts. The contracting officer has a duty to obtain certified data
that can be relied on in order to ensure legal protection if defective pricing is
subsequently discovered. The law offers protection only if a contracting officer
relies on certified data. Because NAVAIR stated they did not rely on cost or
pricing data during negotiations, NAVAIR was not in a position to recover any
overpricing.

Significance. The negotiated price between Allegheny (subsequently TRE), the
second-tier subcontractor, and Sierra was $1,289,680. Negotiations with LMSI
were not conducted on an element-by-element basis. LMSI clearly completed
negotiations using price analysis for the material position. There was ample
historical data upon which the Government could reasonably rely. The
Government Contracting Officer accepted the price analysis provided and did not
request further cost data at that juncture or thereafter.

        Response. Based on DCAA’s audit report, the $1.2 million second-tier
fixed-price subcontract was overpriced by over $400,000 ($713,539 with higher
level loadings), more than 34% of the subcontract, not an insignificant amount.
Historical data alone are insufficient as cost or pricing data according to FAR part
15.801, Definitions. Cost or pricing data include all the facts that can reasonably
be expected to contribute to the soundness of estimates of future costs to be
negotiated. The subcontractor failed to provide current, complete and accurate
cost or pricing data.

Summary of Management Comments 1, 6, and 7 on Timeliness. NAVAIR
properly and promptly settled the defective pricing audit report. A draft revised
audit report was forwarded by DCAA on December 21, 1998. NAVAIR
requested that DCAA rescind the audit on May 11, 1999 and on June 24, 1999.
On December 21, 2000 a revised audit report, number 6271-1999G42097001, was
issued. It replaced audit report 6351-90A42010009. This report reduced the
recommended price adjustment to a total of $713,539 and eliminated any
reference to all second tier subcontractors with the exception of Allegheny.
NAVAIR requested that LMSI respond to the revised audit by March 31, 2001;
however, LMSI was unable to respond due to their inability to receive
subcontractor documents. On July 10, 2001, NAVAIR approved the business
clearance, which resolved the Defective Pricing Action. Based on the information
listed above, both DCAA and NAVAIR were actively working this defective
pricing action.

NAVAIR nonconcurred that prompt and decisive action taken by parties familiar
with the circumstances during the negotiations may have led to a satisfactory
solution of the defective pricing issue. Under all applicable case law and
regulations, effective with the decision during negotiations to rely on price
analysis of the subcontract, there was no defective pricing issue. This fact was
documented in the BCM and communicated again via the two 1999 NAVAIR
letters requesting rescission of the defective pricing action.




                                     14
        Response. Management comments do not properly address the
chronology of the audit finding of defective pricing. The defective pricing issue
that required resolution and disposition was initially presented in Report No.
6351-90A42010009, issued September 4, 1992 and updated on September 29,
1995 at the request of NAVAIR after the investigation ended. Report No. 6351-
90A42010009-S1, September 29, 1995, on Loral Federal Systems (formerly
IBM), confirmed that the defectively priced SRD subcontract costs addressed in
the earlier report remained unchanged. Therefore, timely resolution should have
occurred within six months of September 29, 1995.

The investigative files showed that changes in NAVAIR contracting personnel
resulted in changed opinions of how to disposition the defective pricing issue.
Initially, the contracting officer intended to seek an administrative remedy.
Successive personnel failed to take action on the issue. No attempt was ever
made to approach IBM with a demand for a price adjustment based on
subcontractor violations of TINA requirements, as implemented in FAR part 15.8.
After being advised by the investigator to proceed with the administrative
settlement, the contracting officer did not dispose of the report until over six years
later. If the initial contracting officer had not relied on the data, he could have
closed the case in 1996 when the investigation was completed rather than
planning to seek an administrative remedy.

Summary of Management Comments 3, 4, 9, 10, and 11 on Followup of
Special Tooling and Test Equipment. NAVAIR disagrees with the allegation
that it had not followed up on special tooling and test equipment. NAVAIR could
not find a reply to DCAA letters requesting assistance to determine whether
certain ST and STE items were, or were not, part of production contracts N00019-
91-C-0125 and N00019-93-C-0084. However, Lockheed Martin acknowledged
via correspondence to DCMA and NAVAIR the Government Property
accountable to these two contracts. Lockheed Martin estimated residual value of
Government Property at $145,340. These items were Government Property under
the terms of the LGTR contracts. Due to their age, these items have either been
disposed of as part of the contract close out process, sold to Lockheed Martin, or
transferred to contract N00019-99-C-1648. Moreover, oversight of LMSI’s
government property system rests with the cognizant Contract Administration
Organization.

As a result, management recommended that the assessment of the second
allegation that a contracting officer did not follow up on special tooling and test
equipment be revised from partially sustained to not sustained.

        Response. This response only addresses Special Tooling because, as
stated in the finding, we did not substantiate the allegation on Special Test
Equipment. We have however, revised the report on page 6, concerning Special
Tooling, to state that contract number N00019-91-C-0125 was subject to the
Government Property Clause under a class deviation in effect at the time the
contract was negotiated. Therefore the $145,000 of special tooling proposed by
the contractor on contract number N00019-91-C-0125 was Government property
because of the class deviation even though the special tooling clause was not
included.


                                     15
The BCM was silent on the special tooling. Concerning title information, we
interviewed contractor personnel and were informed that IBM claimed title. In
1999, the contractor notified NAVAIR that they claimed title to the property
because the Special Tooling clause was not included. The contractor did not
realize that the special tooling was covered under the class deviation. Although
NAVAIR considered this Government property, NAVAIR neither followed up
when the contractor notified them that they claimed title to the property nor
contacted the administrative contracting officer to alert them of the discrepancy.
We were provided no support for the disposition of the Government property as
described in the NAVAIR comments. Therefore, the allegation that NAVAIR did
not follow up on the equipment was substantiated.

Based on the confusion surrounding the issue, the time that has elapsed, and
management comments, we have deleted the recommendation on training and
added the recommendation to have NAVAIR notify the administrative contracting
officer about the special tooling to either ensure the property is tagged and
identified as Government property or in the event that the special tooling no
longer exists, obtain an explanation of what happened to the special tooling.

Summary of Management Comment 7 on Rescinding the DCAA Audit
Report. NAVAIR does not consider the requests to rescind the audit to be
inappropriate in any way. The intention of the contracting officer when the
July 12, 2001 letter was sent to DCAA requesting that Audit Report No. 6271-
1999G42097001 be rescinded was to state its position concerning the audit and
did not agree that there was a sustainable defective pricing action. Ultimately, it
was the failure of proof on the issue of reliance that prevented legal action; the
DCAA audit failed to address that weakness in any meaningful way. The
NAVAIR Office of Counsel supported this position. The intention of the
contracting officer was never to request DCAA to violate the Government
Auditing Standard that requires the auditor to be independent in attitude and
appearance.

        Response. We accept NAVAIR’s intent and have revised the report to
clarify the sensitivity of auditor independence.




                                     16
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Air Systems Command
Assistant Commander for Contracts, Naval Air Systems Command
Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Congressional Committees and Subcommittees, Chairman and Ranking
  Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          17
Naval Air Systems Command
Comments




                    19
20
21
Final Report
 Reference




Added
recommen-
dation 3




               22
23
Final Report
 Reference




Revised to
clarify




               24
     Final Report
      Reference




     Corrected




     Revised




25
Final Report
 Reference




Revised




               26
     Final Report
      Reference




     Revised




     Revised




27
Final Report
 Reference




Deleted




               28
Team Members
The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of
the Deputy Inspector General for Inspections and Policy of the Department of
Defense prepared this report. Personnel of the Office of the Inspector General of
the Department of Defense who contributed to the report are listed below.

Wayne C. Berry
Madelaine E. Fusfield
Patricia A. Bartron
Krista S. Gordon
